                                                                    United States Department of State
                                                                    and the Broadcasting Board of Governors

                                                                    Office of Inspector General



SENSITIVE BUT UNCLASSIFIED


TO:               CGFS – James L. Millette, Comptroller

FROM:             OIG/ISP – Robert B. Peterson, Assistant Inspector General

SUBJECT:	         Management Assistance Report – Direct Payment of Official Residence Expenses
                  Staff Salaries, ISP-I-14-08


Background: The Office of the Inspector General (OIG) has identified a practice, prohibited by
Department of State (Department) regulations, that subjects the U.S. Government to liability for
nongovernment employees—individuals working in chief of mission, deputy chief of mission,
and principal officer residences. Through this Management Assistance Report, OIG is
recommending that the Department discontinue this practice.

Finding: During four inspections in fall 2013, OIG found that Official Residence Expenses
(ORE) staff salaries were paid directly by the Department rather than by the principal
representative 1 at the missions inspected. Payments were made either by the mission’s Class B
Cashier or Global Financial Services in Charleston using electronic funds transfer (EFT). The
practice of direct payment of ORE staff salaries from U.S. Government funds likely evolved for
the convenience of some principal representatives, who preferred not to advance the funds for
these expenses and then wait for reimbursement. In addition, some missions may have
erroneously applied the Department’s mandate to use EFT to pay vendors to the payment of
ORE staff salaries. Although the regulations concerning the issue are clear, the Department has
not issued specific guidance or reminders on avoiding direct payment of ORE staff salaries, nor
specifically outlined acceptable practices in this regard.

In accordance with 3 FAM 3257, “Permanent and part-time staff employed under ORE are
employees of the principal representative, not of the U.S. Government. Thus, the principal
representative (or household manager) will disburse the pay to these employees.” Guidance in 4
FAH-3 H-394.2-4(b) states, “Reimbursement payments for ORE expenses may be paid only to
the ‘Principal Representative’ (as defined in Chapter 400 of the Standardized Regulations) or to
vendors, not to ORE staff.” In addition, 3 FAH-1 H-3252.2 states that, “the lack of an employee
and/or employer relationship with the Federal Government should be clearly understood by both
administrative staff as well as the ORE household staff when they are hired and pointed out
periodically during their employment.”



1
 For the purposes of this report, principal representatives include chiefs of mission, deputy chiefs of mission, and
principal officers.



                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Maintaining the employer/employee relationship between the principal representative and the
ORE staff member is important for several reasons. Principal representatives need to have the
flexibility to hire and fire their personal staff members according to their needs. Although
principal representatives normally seek the embassy’s help in determining pay for their staff, the
principal representatives set the pay. If the ORE staff were U.S. Government employees, they
would fall under the mission’s Local Compensation Plan and it would be difficult to terminate
their employment at the will of the principal representative. Drawing wages directly from the
mission cashier or Global Financial Services creates the appearance of an employer/employee
relationship between the U.S. Government and the ORE staff member, which could create a
liability for the Department.

This practice must be discontinued. In accordance with 5 U.S.C. § 5913(c) and Department of
State Standardized Regulations 456, an agency “…may provide an advance of funds for ORE
expenses to principal representatives eligible to receive reimbursements for such expenses.”
Provision of these advances would be less inconvenient to principal representatives than
advancing the funds personally and waiting for reimbursement but would allow management
officials to adhere to the law and regulations.

Recommendation 1: The Bureau of the Comptroller and Global Financial Services should
publish a directive prohibiting the direct payment by cashiers or by electronic funds transfer to
Official Residence Expenses staff and clarifying acceptable procedures. (Action: CGFS)

Recommendation 2: The Bureau of the Comptroller and Global Financial Services should
clarify in Department of State regulations and periodically send reminders to emphasize that
Official Residence Expenses staff are employees of the principal representatives, who are
responsible for salary and benefit payments in accordance with local law and practices. (Action:
CGFS)

You should advise us on actions taken or planned on the recommendations within 30 days of the
date of this memorandum. Actions taken or planned are subject to OIG followup and reporting.

I would be happy to meet with you to discuss this matter further, or your staff may contact
                                                                           [Redacted] (b) (6)
Robert Peterson, Assistant Inspector General for Inspections, on 202-663­




Enclosures:
       Compliance Sheet
       OIG Resolution Procedures




                              SENSITIVE BUT UNCLASSIFIED

